__________________________________________________________
NO. ____________
__________________________________________________________
IN THE UNITED STATES SUPREME COURT
_________________ TERM
__________________________________________________________
LEE YERKES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________________________________________________
APPENDIX
__________________________________________________________

Erin P. Rust
Assistant Federal Defender
FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INC.
835 Georgia Avenue, Suite 600
Chattanooga, Tennessee 37402
(423) 756-4349

Counsel for Petitioner
__________________________________________________________

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

820 Fed.Appx. 334
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 6th Cir. Rule 32.1.
United States Court of Appeals, Sixth Circuit.

West Headnotes (3)
[1]

Sentencing and Punishment
offenses

Particular

Tennessee aggravated robbery qualifies as an
Armed Career Criminal Act (ACCA) predicate
violent felony; the crime's “entry” element is
not overbroad.
18 U.S.C.A. § 924(e)(2)(B)
(ii); Tenn. Code Ann. § 39-14-403.

UNITED STATES of America, Plaintiff-Appellee,
v.
Lee YERKES, Defendant-Appellant.

1 Cases that cite this headnote

No. 19-5768
|
FILED July 10, 2020

[2]

Particular

“Entry” element of federal defendant's prior
Georgia simple burglary convictions was not
overbroad so as to disqualify convictions from
being Armed Career Criminal Act (ACCA)
predicate violent felonies; at time of convictions,
Georgia law had provided that person committed
burglary when, without authority and with intent
to commit felony or theft therein, he entered
or remained in dwelling house of another or
building, vehicle, railroad car, watercraft, or
other such structure designed for use as dwelling
of another or entered or remained in any other
building, railroad car, aircraft, or any room or

Synopsis
Background: Defendant was convicted in the United States
District Court for the Eastern District of Tennessee, Harry
S. Mattice, J., of being felon in possession of firearm and
ammunition, and was sentenced pursuant to Armed Career
Criminal Act (ACCA). Defendant appealed sentence, arguing
that his prior Tennessee aggravated burglary and Georgia
simple burglary convictions did not qualify as predicate
offenses under ACCA.

Holdings: The Court of Appeals, Griffin, Circuit Judge, held
that:

part thereof.

18 U.S.C.A. § 924(e)(2)(B)(ii);

Ga. Code Ann. § 16-7-1(a) (1980).

[1] “entry” element of Tennessee aggravated robbery was
not overbroad so as to disqualify crime from being ACCA
predicate;
[2] “entry” element of defendant's Georgia simple burglary
convictions was not overbroad so as to disqualify convictions
from being ACCA predicates; and

Sentencing and Punishment
offenses

1 Cases that cite this headnote
[3]

[3] defendant had committed burglary offenses on different
occasions within meaning of ACCA.
Affirmed.

Sentencing and Punishment
counted as separate

Convictions

Defendant had committed prior burglary
offenses on different occasions within meaning
of Armed Career Criminal Act (ACCA),
as required for offenses to qualify as
discrete ACCA predicates; each burglary count
specified different residence or business location
burglarized.

18 U.S.C.A. § 924(e)(1).

Moore, Circuit Judge, filed dissenting opinion.
Procedural Posture(s): Appellate Review.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 002

1

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

ON APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT OF TENNESSEE
Attorneys and Law Firms
Luke A. McLaurin, Office of the U.S. Attorney, Knoxville,
TN, Plaintiff-Appellee
Erin P. Rust, Assistant Federal Public Defender, Federal
Defender Services, Chattanooga, TN, for DefendantAppellant

provides that certain previous felony convictions, including
those for “burglary,” constitute “violent felon[ies].” To
determine whether a past conviction qualifies as burglary
under the ACCA, we employ the “categorical approach”
and “compare the elements of the statute forming the basis
of the defendant's conviction with the elements of the
‘generic’ crime—i.e., the offense as commonly understood.”
Descamps v. United States, 570 U.S. 254, 257, 133 S.Ct.
2276, 186 L.Ed.2d 438 (2013). Yerkes’ prior convictions
count as ACCA predicates “only if the statute's elements are
the same as, or narrower than, those of the generic offense.”

BEFORE: MOORE, SUTTON, and GRIFFIN, Circuit
Judges.

Id.
“[T]he contemporary understanding of ‘burglary’ has

Opinion
GRIFFIN, Circuit Judge:
*335 After defendant Lee Yerkes pleaded guilty to a
federal gun charge, the district court found him eligible
for a mandatory minimum sentence of fifteen years under
the Armed Career Criminal Act (“ACCA”) and sentenced
him accordingly. On appeal, Yerkes argues that his previous
convictions for burglary under Tennessee and Georgia law
do not qualify as ACCA predicates and that the district court
erred by finding otherwise. We disagree and therefore affirm.
In 2018, Yerkes pleaded guilty to being a felon in possession
of a firearm and ammunition, in violation of
18 U.S.C.
§ 922(g)(1). At the time, he had seven prior convictions
for burglary: two for aggravated burglary in Tennessee and
five for simple burglary in Georgia. See Tenn. Code Ann.
§ 39-14-403 (1990);
Ga. Code Ann. § 16-7-1(a) (1980).
Based on those convictions, the district court found that
Yerkes qualified as an armed career criminal under
18
U.S.C. § 924(e)(1), which imposes a mandatory minimum
sentence of fifteen years if the defendant has at least three
prior convictions “for a violent felony or a serious drug
offense, or both.” The district court imposed a sentence of 180
months of incarceration followed by five years of supervised
release. Yerkes timely appealed his sentence.

diverged a long way from its commonlaw roots.” Taylor v.
United States, 495 U.S. 575, 593, 110 S.Ct. 2143, 109 L.Ed.2d
607 (1990). “So the proper setting for examining the contours
of generic burglary is not its understanding at common law,
but rather its understanding at the time the ACCA was passed,
as evidenced in the criminal codes of the states.” Greer v.
United States, 938 F.3d 766, 771 (6th Cir. 2019). With this
frame of reference in mind, the Supreme Court has clarified
that “the generic, contemporary meaning of burglary contains
at least the following elements: an unlawful or unprivileged
entry into, or remaining in, a building or other structure, with
intent to commit a crime.”
S.Ct. 2143.

In Tennessee, “[a]ggravated burglary is burglary of a
habitation.” Tenn. Code Ann. § 39-14-403(a). “Burglary”
means, among other things, “[e]nter[ing] a building ... (or
any portion thereof) not open to the public, with intent to
commit a felony, theft or assault.”

Tenn. Code Ann. §

39-14-402(a)(1); see also Tenn. Code Ann. § 39-14-401(1)
(defining “habitation”). At the time of Yerkes’ Georgia
burglary convictions, the statute defined “burglary” thus:

I.
The government argues that Yerkes’ prior convictions qualify
as ACCA predicates under the Act's enumerated-offense
clause. See

Taylor, 495 U.S. at 598, 110

18 U.S.C. § 924(e)(2)(B)(ii). That clause

A person commits the offense of
burglary when, without authority and
with the intent to commit a felony
or theft therein, *336 he enters or
remains within the dwelling house
of another or any building, vehicle,
railroad car, watercraft, or other such
structure designed for use as the
dwelling of another or enters or

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 003

2

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

remains within any other building,
railroad car, aircraft, or any room or
any part thereof.

that instrument alone as a burglary. Blackstone, supra, at
227; 3 Edward Coke, Institutes of the Laws of England
64 (1648). But later cases held that if a person used an
instrument merely to undertake the “breaking” and did not
also use it to commit the additional felony (for example, the
person used a drill bit only to drill through a door), the entry
of that instrument alone did not suffice. See Rex v. Hughes,
168 Eng. Rep. 305, 305 (1785); 1 William Hawkins, Pleas
of the Crown 162 (6th ed. 1788).

Ga. Code Ann. § 16-7-1(a) (1980).

A.

Brown asks us to incorporate this “entry-by-instrument”
distinction into the Armed Career Criminal Act's generic
definition of burglary, which covers the unlawful “entry
into, or remaining in, a building or structure, with intent

Yerkes argues that his previous burglary convictions in
Tennessee and Georgia state court do not qualify as generic
burglary offenses because the “entry” elements in those
state statutes are overbroad. In United States v. Brown,
the defendant had previously been convicted of aggravated
burglary under Tennessee Code § 39-14-403 and raised the
same nuanced argument Yerkes makes here. 957 F.3d 679,
683 (6th Cir. 2020). We summarized that argument as follows:

Taylor, 495 U.S. at 599, 110
to commit a crime.”
S.Ct. 2143 (emphasis added). He adds that Tennessee
law defines “enter” to include not just the “[i]ntrusion
of any part of the body” but also the “[i]ntrusion of any
object in physical contact with the body or any object
controlled by remote control, electronic or otherwise.”

Brown's argument hinges on a subtle common-law
distinction. The common law defined burglary narrowly
and required more elements than most modern burglary
statutes: “At common law, burglary was confined to
unlawful breaking and entering a dwelling at night with

Tenn. Code Ann. § 39-14-402(b). *337 Brown thus
thinks that Tennessee law adopts a broader view of “entry”
than the common-law view because it reaches any object
—even one used only to gain access to a home. (No
state decision, as far as we are aware, has answered this

the intent to commit a felony.” Quarles v. United States,
––– U.S. ––––, 139 S. Ct. 1872, 1877, 204 L.Ed.2d 200
(2019). The common law nevertheless defined the “entry”
element of this narrow crime broadly: “As for the entry,
any the least degree of it, with any part of the body, or
with an instrument held in the hand is sufficient.” 4 William
Blackstone, Commentaries on the Law of England 227
(1770).
Despite the breadth of a common-law “entry,” some
authorities eventually distinguished the entry of a body part
(a foot or finger) from the entry of an instrument (a hook
or firearm). “[I]f any part of the body be within the house,
hand or foot; this at common law [was] sufficient[.]” 2
Edward H. East, Pleas of the Crown 490 (1806). A person
thus “entered” a home merely by reaching an arm into it,
whether that reach was designed to steal money or unlock a
door. See Rollin M. Perkins, Criminal Law 155–56 (1957);
see also Rex v. Perkes, 171 Eng. Rep. 1204, 1204 (1824).
If only an instrument entered a home, by contrast, whether
that entry sufficed depended on the reason for the entry. If
a person used the instrument to commit the intended felony
(for example, the person stuck a hook into the home to
grab jewelry or a rifle into it to commit a robbery), both
Edward Coke and William Blackstone treated the entry of

question about
§ 39-14-402(b)’s scope, and caselaw
from before that provision's enactment did not clearly
answer the question either. See State v. Crow, 517 S.W.2d
753, 753–55 (Tenn. 1974).) Since Brown's view of this state
definition would cover more than his generic definition of
“entry,” he concludes that Tennessee's definition of “enter”
disqualifies all Tennessee burglary convictions from the
Armed Career Criminal Act's reach.
Id. (alterations in original) (parallel citations omitted).
Brown thoroughly analyzed the merits of this argument, see
id. at 684–89, and concluded that the Supreme Court would
not “adopt Brown's view of generic ‘entry,’ ” id. at 684.
For starters, “we know that Congress did not view the entry
element as a demanding one” because even at common law,
little was required to prove an entry: “Sticking a hand or
finger through a window sufficed, as did drilling a hole
into the walls of a granary to cause the grain to fall out.”
Id. at 685 (citations and internal quotation marks omitted).
And the Supreme Court has “refused to read the [ACCA] as
limited to the common-law rules.” Id. As mentioned above,
the contemporary understanding of burglary is quite different,
and the “arcane distinctions embedded in the commonlaw

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 004

3

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

definition have little relevance to modern law enforcement
concerns.”

Taylor, 495 U.S. at 593, 110 S.Ct. 2143.

is nonbinding dicta. That is, the court in Brown recognized
that a prior case, Brumbach v. United States, 929 F.3d 791, 795
(6th Cir. 2019), rejected the entry-by-instrument argument

The court characterized the entry-by-instrument issue as

because “a panel of this court cannot overrule

“perhaps the prototypical ‘arcane distinction’ that

Nance held that “Tennessee aggravated
States v.] Nance.”
burglary represents a generic burglary capable of constituting

Taylor

would disavow.” Brown, 957 F.3d at 685 (quoting
Taylor,
495 U.S. at 593, 110 S.Ct. 2143). Congress's chief concern in
passing the ACCA was the risk of a violent encounter inherent
in certain crimes—for burglary, “between the offender and
an occupant, caretaker, or some other person who comes
to investigate.”
Taylor, 495 U.S. at 588, 110 S.Ct. 2143.
And the entry-by-instrument distinction has “no relevance”
to that purpose. See Brown, 957 F.3d at 685 (“Which burglar
creates the greater risk of a violent encounter with a startled
homeowner? The one who reaches a finger between a window
and an inner shutter before fleeing (which would qualify as
an entry under Brown's common-law rule), or the one who
violently chops at a door with an axe that intrudes into the
home (which would not qualify under his rule)?” (citation
omitted)).
The court also examined the criminal codes of the states at the
time of the ACCA's enactment, noting that it appears “that the
majority of jurisdictions that had examined this question had
retained the narrower common-law rule and limited an entry
by instrument to the situation where the instrument is used
to remove property from the premises or injure or threaten
an occupant.” Id. at 688 (citation and internal quotation
marks omitted). But this fact was not dispositive, the court
stated, because Supreme Court precedent tells us that “if
several state burglary statutes had modestly departed from
a common-law rule of burglary when Congress passed the
Armed Career Criminal Act, courts should interpret the Act's
generic definition of burglary to cover those state statutes.” Id.
at 689. Every state statute need not be identical to qualify as
generic burglary; states are instead entitled to some “breathing
space.” Id. at 687. Because the departure at issue was slight
and “did not completely redefine the crime of ‘burglary,’ ”
the court found that the entry-by-instrument distinction did
not make the *338 Tennessee statute broader than generic
burglary. Id. at 688.

a violent felony for ACCA purposes.” 1

[United

481 F.3d 882,

Nance
888 (6th Cir. 2007). Recognizing the authority of
and Brumbach, the court in Brown stated that “Brown should
direct his argument to our en banc court or the Supreme
Court.” 957 F.3d at 683–84. Even so, the court thought
“Brown's argument weighty enough to warrant a response
from this court on the merits too.” Id. at 684.
1

Nance’s holding was, for a time, overruled by
this court's en banc decision in
United States v.
Stitt, 860 F.3d 854, 861 (6th Cir. 2017) (en banc).
After the Supreme Court granted certiorari and
reversed, see
United States v. Stitt, ––– U.S.
––––, 139 S. Ct. 399, 408, 202 L.Ed.2d 364 (2018),
we recognized that “ Nance’s holding ... is once
again the law of this circuit,” Brumbach, 929 F.3d
at 794.

[1] [2] Yerkes also points out that he has only two prior
convictions for Tennessee aggravated burglary, and Brown,
Brumbach, and

Nance do not discuss the statute of his

Georgia convictions. 2 But even if we are not bound by it,
we find Brown’s discussion—and rejection on the merits—of
the entry-by-instrument argument persuasive. Yerkes offers
no reason for us to treat the Georgia statute differently from
the Tennessee statute in this respect, and upon examining the
two, we find none. Accordingly, we reject his argument that
the statutes are overbroad based on their “entry” elements.
2

B.
Yerkes argues that we are not obligated to follow Brown here
because its discussion of the entry-by-instrument distinction

We addressed the statute of Yerkes’ Georgia
Richardson v. United
burglary convictions in
States, 890 F.3d 616 (6th Cir. 2018), cert. denied,
––– U.S. ––––, 139 S. Ct. 349, 202 L.Ed.2d 246
(2018). There, the court determined that the statute
is divisible and that the elements of the defendant's
convictions—“(1) an unlawful entry (2) into a
dwelling house or building (3) with intent to
commit a crime therein”— “substantially conform
to the generic definition of burglary announced by

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 005

4

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

the Supreme Court.”

of two different “habitation[s],” each with a different owner.
Each indictment listed a different commission date for the
aggravated burglaries: July 7, 2008, and July 14, 2008. Two
criminal judgments show that Yerkes pleaded guilty to these
two aggravated burglary charges.

Id. at 629. As discussed

below, the
Shepard documents here similarly
show that in all five Georgia burglary counts,
Yerkes pleaded guilty to burgling either a dwelling
house or a building.

Because each of the seven counts specified a “different
residence[ ] or business location[ ],” Paige, 634 F.3d at

II.
[3] Yerkes offers another reason why his prior burglary
convictions should not count as ACCA predicates. He claims
that the government failed to prove that his burglary offenses
were “committed on occasions different from one another.”
See

18 U.S.C. § 924(e)(1).

[T]wo offenses are committed on
different occasions under the Act if:
(1) it is possible to discern the point
at which the first offense is completed,
and the subsequent point at which the
second offense begins; (2) it would
have been possible for the offender to
cease his criminal conduct after the
first offense, and withdraw without
committing the second offense; or (3)
the offenses are committed in different
residences or business locations.

873, the
Shepard documents show that Yerkes committed
the burglary offenses (or at very least, three of them)
on different occasions. But Yerkes contends that “the
Shepard-approved evidence does not establish that he
necessarily admitted that he committed the burglaries on
occasions different from one another.” (Emphasis added.)
That is, aside from one “reference to one specific individual
(including her address for purposes of restitution)[,] nothing
in the judgment identifies the date/location of any offense, nor
does anything else in the judgment indicate that Mr. Yerkes
necessarily admitted the time or location of any burglary.”
Because “[t]he time or location of the crime, then, is merely
a fact – not an element,” Yerkes argues that relying on the
above information from the indictments would violate his
Sixth Amendment rights. See
F.3d 267, 272 (6th Cir. 2017).

United States v. King, 853

United States v. Hennessee forecloses this argument. 932 F.3d
437, 444 (6th Cir. 2019), cert. denied, ––– U.S. ––––, 140
S. Ct. 896, 205 L.Ed.2d 471 (2020). “[A] district court may
consider both elemental and non-elemental facts contained in

United States v. Paige, 634 F.3d 871, 873 (6th Cir. 2011)
(citation and internal quotation marks omitted).
Shepard documents provide the following information.
See
*339 Shepard v. United States, 544 U.S. 13, 125
S.Ct. 1254, 161 L.Ed.2d 205 (2005). One indictment in the
Catoosa County, Georgia Superior Court charged Yerkes with
four counts of burglary of a “dwelling house.” Each count
listed a different address and owner for the burgled dwelling
house in question. The first count alleged a commission date
of August 22, 2008, while the other three listed a commission
date of September 25, 2008. A separate indictment charged
Yerkes with burgling a “business premises” on July 14, 2008,
and listed its name and address. Two “final disposition”
documents show that Yerkes pleaded guilty to all five burglary
counts. Two indictments in the Hamilton County, Tennessee
Criminal Court charged Yerkes with aggravated burglaries

Shepard-approved documents to determine whether prior
felonies were committed on occasions different from one
another for purposes of the ACCA.” Id. The district court here
properly did so, and correctly imposed an ACCA-enhanced
sentence.

III.
For these reasons, we affirm the district court's judgment.

KAREN NELSON MOORE, Circuit Judge, dissenting.
The majority opinion departs from well-established principles
regarding the application of the categorial approach to
burglary convictions in Armed Career Criminal Act
(“ACCA”) cases as set forth by the Supreme Court. The
majority applies the entry-issue analysis from United States

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 006

5

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

v. Brown, 957 F.3d 679 (6th Cir. 2020), to reject Yerkes's
arguments. But the Brown analysis is not binding because
it is dicta, nor is it persuasive due to its significant errors.

§ 924(e)(2)(B). “We refer to
§ 924(e)(2)(B)
(i) as the ‘use of force clause,” the list of offenses in
§ 924(e)(2)(B)(ii) as the “enumerated offenses”

Proper application of the categorical approach from Taylor
v. United States, 495 U.S. 575, 110 S.Ct. 2143, 109 L.Ed.2d
607 (1990), demonstrates that Yerkes's Georgia burglary
convictions are not categorical matches for generic burglary
because Georgia's entry element of burglary is broader than
the entry element of generic burglary.

clause, and the remaining “portion of

(2)(B)(ii) ... as the ‘residual clause.’ ”
United
States v. Mitchell, 743 F.3d 1054, 1058 (6th Cir.
2014). Here, we consider “burglary” under the
enumerated offense clause. The residual clause
Johnson v. United
was ruled unconstitutional in
States, ––– U.S. ––––, 135 S. Ct. 2551, 2563, 192
L.Ed.2d 569 (2015).

We review de novo “[w]hether a defendant is a career
offender.”
*340 United States v. Cooper, 739 F.3d
873, 877 (6th Cir. 2014). We apply the categorical approach to
determine whether a defendant's prior conviction for burglary
is an ACCA predicate offense. Greer v. United States, 938
F.3d 766, 770–71 (6th Cir. 2019). 1 Under the categorical
approach, we “compare the elements of the statute forming
the basis of the defendant's conviction with the elements
of the ‘generic’ crime.” Id. at 771 (quoting
Descamps
v. United States, 570 U.S. 254, 257, 133 S.Ct. 2276, 186
L.Ed.2d 438 (2013)). If the elements of the state criminal
statute “are broader than those of generic burglary,” a prior
state conviction under that statute does not qualify as generic
burglary under the ACCA.
United States v. Stitt, ––– U.S.
––––, 139 S. Ct. 399, 405, 202 L.Ed.2d 364 (2018) (quoting
Mathis v. United States, ––– U.S. ––––, 136 S. Ct. 2243,
2257, 195 L.Ed.2d 604 (2016)).
1

Yerkes contends that entry for Georgia burglary is broader
than generic entry. Specifically, he argues that the generic
definition of “entry” with an instrument is when an instrument
crosses the threshold and the instrument is used or intended
to be used to commit a further felony inside (instrumentfor-crime approach). Appellant Br. at 8; Reply Br. at 2
& n.1. Georgia penalizes as an entry when an instrument
simply crosses the threshold of the structure (any-instrument
approach). Appellant Br. at 8; Reply Br. at 2 & n.2. Under the
generic definition of entry, Yerkes argues, Georgia penalizes
mere attempted entries, and therefore criminalizes attempted
burglaries, which is broader than generic burglary. Appellant
Br. at 8. Thus, it is necessary to determine (1) the definition
of generic entry and (2) whether Georgia burglary is broader
than generic burglary based on the entry element.

We classify a defendant as an armed career criminal
if he is convicted under
18 U.S.C. § 922(g)(1)
for possessing a firearm as a convicted felon and if
he “has three previous convictions ... for a violent
felony or a serious drug offense, or both, committed
18
on occasions different from one another.”
U.S.C. § 924(e)(1). A “violent felony” is
any crime punishable by imprisonment for a
term exceeding one year ... that—
(i) has as an element the use, attempted use, or
threatened use of physical force against the
person of another; or
(ii) is burglary, arson, or extortion, involves
use of explosives, or otherwise involves
conduct that presents a serious potential
risk of physical injury to another.

§ 924(e)

I. Generic entry is defined as the
majority, instrument-for-crime approach
Taylor did not define the entry element of generic burglary,
but it did give federal courts the method for discerning the
generic definition of entry. See Taylor, 495 U.S. at 598, 110
S.Ct. 2143. The Supreme Court determined that “Congress
meant by ‘burglary’ the generic sense in which the term
is now used in the criminal codes of most States.”

Id.

(emphasis added); see also
id. at 589, 110 S.Ct. 2143
(“Congress, at least at that time [in 1986] had in mind a
modern ‘generic’ view of burglary, roughly corresponding to
the definitions of burglary in a majority of the States’ criminal
codes.” (emphasis added));
Stitt, 139 S. Ct. at 406. Thus,
the question is not what the understanding of burglary was at
common law, “but rather [Congress's] understanding *341

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 007

6

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

at the time the ACCA was passed.” Greer, 938 F.3d at
771. It is well established that in this circuit, we find the
generic definition “by surveying how the crime is described
across jurisdictions, as well as consulting sources such as the
Model Penal Code.”

Cooper, 739 F.3d at 879 (quoting

United States v. Rede-Mendez, 680 F.3d 552, 556 (6th Cir.
2012)); see also Keeley v. Whitaker, 910 F.3d 878, 882 (6th
Cir. 2018); Greer, 938 F.3d at 771;
United States v.
Yates, 866 F.3d 723, 733 (6th Cir. 2017). In its two most
recent ACCA-burglary cases, the Supreme Court followed
Taylor, adopting the majority state view as the generic
definition of certain aspects of burglary. See
Quarles
v. United States, ––– U.S. ––––, 139 S.Ct. 1872, 1878,
204 L.Ed.2d 200 (2019) (intent for remaining-in burglary);
Stitt, 139 S. Ct. at 406 (locational element).
In 1986, the majority rule among the states was the
instrument-for-crime approach; nineteen states had adopted
the instrument-for-crime approach and eight had adopted the
any-instrument approach. See Nev. Rev. Stat. § 193.0145

Ann. § 76-6-201(4)(b) (1973);
People v. Osegueda, 163
Cal.App.3d Supp. 25, 210 Cal. Rptr. 182, 185–87 (Cal. App.
Dep't Super. Ct. 1984); Mullinnix v. State, 177 Ga.App. 168,
338 S.E.2d 752, 753 (1985);
State v. Tixier, 89 N.M.
297, 551 P.2d 987, 988–89 (N.M. Ct. App. 1976); State v.
Crow, 517 S.W.2d 751, 754–55 (Tenn. 1974) (all applying
the any-instrument approach). Contemporary commentators
recognized that the instrument-for-crime approach was the
majority rule, including Professors LaFave, Scott, Perkins,
and Boyce. See 2 Wayne R. LaFave & Austin W. Scott, Jr.,
Substantive Criminal Law § 8.13(b) (1986); Rollin M. Perkins
& Ronald N. Boyce, Criminal Law 254–55 (3d ed. 1982)
(“But in any event the rule became firmly established that
the insertion of a tool or instrument does not constitute an
entry, within the law of burglary, *342 if it is used merely
to effect a breaking.”). Tellingly, neither the government nor
the majority disputes that the majority rule in 1986 was the
instrument-for-crime approach. See Appellee Br. at 18–19;
Majority Op. at ––––. The instrument-for-crime approach
thus defines generic entry.
2

(1985); Wash. Rev. Code § 9A.52.010(2) (1985);
Walker
v. State, 63 Ala. 49, 51–52 (1879); Sears v. State, 713 P.2d
1218, 1220 (Alaska Ct. App. 1986); Thompson v. State, 252
Ark. 1, 477 S.W.2d 469, 471–72 (1972); Foster v. State, 220
So.2d 406, 407 (Fla. Dist. Ct. App. 1969);

Appellee Br. at 19.

State

2

v. Ervin, 223 Kan. 201, 573 P.2d 600, 601 (1977) ; Stamps
v. Commonwealth, 602 S.W.2d 172, 173 (Ky. 1980); State v.

3

Commonwealth v.

Burke, 392 Mass. 688, 467 N.E.2d 846, 849 (1984);

State

v. Hodges, 575 S.W.2d 769, 772 (Mo. Ct. App. 1978); State
v. O'Leary, 31 N.J.Super. 411, 107 A.2d 13, 15 (N.J. Super.
Ct. App. Div. 1954); State v. Tragni, 113 Misc.2d 852, 449
N.Y.S.2d 923, 928 (N.Y. Sup. Ct. 1982); State v. Sneed, 38
N.C.App. 230, 247 S.E.2d 658, 659 (1978); State v. Crawford,
8 N.D. 539, 80 N.W. 193, 194 (1899); State v. Chappell,
185 S.C. 111, 193 S.E. 924, 924–25 (1937);
Mirich v.
State, 593 P.2d 590, 593 n.4 (Wyo. 1979) (all applying the
instrument-for-crime approach). 3 But see Ariz. Rev. Stat.
Ann. § 13-1501(2) (1978);
11 Del. Code Ann. § 829(b)
(1972); Tex. Code Ann. § 30.02(b)(2) (1973); Utah Code

Martin addresses the Kansas

state crime of eavesdropping, however.
at 1026.

Mattox v.

State, 179 Ind. 575, 101 N.E. 1009, 1009 (1913);

Liberty, 280 A.2d 805, 808 (Me. 1971);

instrument approach, citing
State v. Martin,
232 Kan. 778, 658 P.2d 1024 (1983), in support.

People v. Davis,

3 Ill.App.3d 738, 279 N.E.2d 179, 181 (1972);

The government argues that Kansas should be
counted along with the states following the any-

658 P.2d

The government characterizes some of these states
as merely having “language in their jurisprudence
suggesting that they endorsed” the instrument-forcrime approach, Appellee Br. at 21 n.7, but this is
an understatement. Each state cited has set forth the
instrument-for-crime approach as its definition of
entry.

The majority follows the analysis in Brown, which concluded
that the definition of generic entry is the minority, anyinstrument approach. Majority Op. at –––– – ––––; see also
Brown, 957 F.3d at 683–89. This analysis is not binding,
however, because Brown, a Tennessee-aggravated-burglary
case, held that Brumbach v. United States, 929 F.3d 791
(6th Cir. 2019), cert. denied, ––– U.S. ––––, 140 S. Ct. 974,
206 L.Ed.2d 130 (2020), foreclosed the defendant's entry
argument. Brown, 957 F.3d at 683–84. In any event, the
majority's reiteration of the Brown analysis is unpersuasive
because it makes four significant errors.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 008

7

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

First, the majority bucks binding Supreme Court precedent,
Taylor, by adopting a commonlaw approach to defining
the contours of generic burglary. Majority Op. at –––– – ––––.
It is true that Congress “had in mind at least the ‘classic’
common-law definition when [it] considered the inclusion
Taylor, 495 U.S. at
of burglary as a predicate offense.”
593, 110 S.Ct. 2143. But the Court has been explicit: “[W]e
Taylor that Congress intended the definition
made clear in
of ‘burglary’ to reflect ‘the generic sense in which the term
[was] used in the criminal codes of most States’ at the time
the [ACCA] was passed.”
alteration in original) (quoting
S.Ct. 2143). Crucially,

Stitt, 139 S. Ct. at 406 (second
Taylor, 495 U.S. at 598, 110

Taylor expressly declined to adopt a

common-law-only focus.
Taylor, 495 U.S. at 593–96, 110
S.Ct. 2143. The majority and Brown reject the clear dictates
Taylor by failing to define generic entry as the majority
of
state rule in 1986.
Second, even following a common-law-only focus, the
majority and Brown erroneously define generic entry. The
common-law rule is the same as the modern, generic rule
—the instrument-for-crime approach. Wayne R. LaFave, 3
Substantive Criminal Law § 21.1(b), 210 n.36 (2d ed. 2003)
(“Today, the majority view is ‘that an entry can occur if
an instrument, “being used to commit the felony intended,”
passes the line of the threshold, regardless of whether the
instrument was used in the breaking,’ while the minority
position is ‘that an entry can occur if any instrument,
whether or not intended for use to commit a felony,
crosses the threshold.’ ” (citation omitted)). As Professor
LaFave explained, though common-law commentators such
as William Blackstone, Edward Coke, and Matthew Hale did
not expressly distinguish between entry with an instrument
with and without the intent to use the instrument to commit
a crime within a structure, “it might be implied from their
examples.” Id. Upon further examination of these examples,
it is clear that Blackstone, Coke, and Hale viewed entry by
instrument in a manner consistent with the instrument-forcrime approach. See 4 William Blackstone, Commentaries on
the Law of England 227 (1769) (“As for the entry, any the least
degree of it, with any part of the body, or with an instrument
held in the hand, is sufficient: as, to step over the threshold, to
put a hand or a hook in at the window to draw out goods, or
a pistol to demand one's money, are all of them burglarious
entries.”) (emphasis added); 1 Matthew Hale, The History

of the Pleas of the Crown 555 (1736) (reiterating the hook
and pistol examples); 3 Edward Coke, Institutes of the Laws
of England 64 (1644) (same). The same is true of other
common-law sources; though the two approaches are not
expressly distinguished, *343 the examples relied upon are
consistent with the instrument-for-crime approach. See Rex v.
Hughes, 168 Eng. Rep. 305, 305 (1785); 2 Edward H. East,
Pleas of the Crown 490 (1806); 1 William Hawkins, Pleas
of the Crown 162 (6th ed. 1788). The government omits this
crucial context, Appellee Br. 17, as did the panel in Brown,
957 F.3d at 684. Upon closer scrutiny, not one commonlaw authority from the government's brief can be said to
support its contention that the common-law rule was the anyinstrument approach. See Appellee Br. at 17–19. And Brown
does not cite a single common-law example following the
any-instrument approach. The panel in Brown merely inferred
a broad approach to entry at common law by citing cases
addressing physical, bodily entries, 957 F.3d at 685, and cases
that followed the instrument-for-crime approach, id. (citing
Walker, 63 Ala. at 51–52; Crawford, 80 N.W. at 194–
95). 4 Given the authorities discussed above, the majority's
conclusion that the traditional rule was the any-instrument
approach is confounding.
4

The Brown panel relies on two state cases adopting
the instrument-for-crime approach. In
Walker,
the Supreme Court of Alabama expressly stated
that “the intrusion of the instrument is not, of itself,
63 Ala. at 52. Rather, the instrument
an entry.”
must be “necessary to the consummation of the
criminal intent.”
Id. The Supreme Court of
North Dakota cited the same rule in Crawford
and concluded that an entry had occurred because
the defendant had used a tool to bore a hole into
the granary, knowing that the tool “set the law of
gravitation in motion,” i.e. caused the grain to spill
through the hole. 80 N.W. at 194 (“When the auger
was withdrawn from the aperture made with it, the
corn ran into the sack he used in its asportation.
There was a breaking and entry ....”).

The third error—and the crux of the majority's argument—
is the conclusion that the difference between the instrumentfor-crime and any-instrument approaches is insignificant.
The difference between the instrument-for-crime and the
any-instrument approaches is not an “arcane distinction[ ]”
from common law that does not fit within the generic

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 009

8

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

definition of burglary,
Taylor, 495 U.S. at 593, 110 S.Ct.
2143; Majority Op. at ––––, nor is Yerkes “seizing on
modest state-law deviations from the generic definition of
burglary,”
Quarles, 139 S. Ct. at 1880; see Majority
Op. at –––– – ––––. The instrument-for-crime approach
criminalizes only entries that were committed with an
instrument intended to be used to commit a crime inside the
structure. When an instrument crosses the threshold without
this intent, it constitutes an attempted entry. Therefore, the
any-instrument approach criminalizes attempted burglaries.
Attempted burglary is inconsistent with the generic definition
James v. United States, the Court expressly
of burglary. In
concluded that attempted burglary does not “qualify as one
of the specific crimes enumerated in clause (ii) .... because
it does not meet the definition of burglary under ACCA that
this Court set forth in
Taylor.”
550 U.S. 192, 197,
127 S.Ct. 1586, 167 L.Ed.2d 532 (2007), overruled on other
grounds by
Johnson v. United States, ––– U.S. ––––, 135
S. Ct. 2551, 192 L.Ed.2d 569 (2015). Neither the majority nor
Brown addresses James. The difference between these two
approaches is not a distinction without a difference.
The final error made by the majority is its conclusion that the
instrument-for-crime approach does not satisfy “Congress's
chief concern in passing the ACCA,” “the risk of a violent
encounter” inherent in burglaries. Majority Op. at ––––.
Relatedly, the government contends that defining generic
entry under the instrument-for-crime approach will mean that
Congress intended to enact a “self-defeating statute” because
if the instrument-for-crime approach were the definition of
generic *344 entry, then burglary convictions in states that
today have not spoken on the issue or that have adopted the
any-instrument approach would no longer serve as ACCA
predicates. Appellee Br. at 25 (quoting Quarles, 139 S. Ct.
at 1879). These arguments are misguided.
Adopting the instrument-for-crime approach to generic entry
will not undermine Congress's purpose in passing the
ACCA. The majority is correct insofar as attempted burglary
implicates congressional intent in including dangerous crimes

Congress to include attempted burglary in the enumerated
offenses clause—instead, they motivated Congress to cover
attempted burglary through the residual clause. See
id. at
197, 209, 127 S.Ct. 1586. The Court later held that Congress
exceeded constitutional restraints when it did so, however.
Johnson, 135 S. Ct. at 2563 (“We hold that imposing an
increased sentence under the residual clause of the Armed
Career Criminal Act violates the Constitution's guarantee of
Taylor to discern
due process.”). Thus, properly applying
the contours of the entry element of generic burglary does not
undermine congressional intent as to the inclusion of burglary
in the enumerated offenses clause.
As for the government, it aims at the wrong targets. We
look to the majority rule of the states when the ACCA
was enacted.
Stitt, 139 S. Ct. at 406. Therefore, the
government's focus on the minority of states’ approaches
today is misdirected. Additionally, there is no basis for the
government's assertion that determining that generic entry is
defined by the instrument-for-crime approach will necessarily
impact the jurisdictions that have yet to address the issue or
that this concern should drive our analysis. In
Quarles,
only five states had addressed the issue in 1986, and the fact
that the vast majority of the states presently had not spoken
on the issue did not stop the Court from adopting the majority
approach of the few states. See Quarles, 139 S. Ct. at 1878
& n.1. The government provides no authority for its implied
proposition that a state that is silent on the entry rule will
be considered to have adopted the minority, any-instrument
approach. The government cites Stokeling v. United States,
––– U.S. ––––, 139 S. Ct. 544, 552, 202 L.Ed.2d 512
(2019), and
United States v. Castleman, 572 U.S. 157,
167, 134 S.Ct. 1405, 188 L.Ed.2d 426 (2014), for the general
proposition that Congress would not enact a provision that
excludes many state statutes. In
Stokeling, “it [was] clear
that many States’ robbery statutes would not qualify as ACCA
predicates under Stokeling's reading” because his reading
impacted other robbery offenses.
139 S. Ct. 544, 552
(2019). The government outlines no such ripple effect here.

as predicates in the ACCA. The Court concluded in James
that Congress believed attempted burglary presented a high
risk of violence and thus intended the ACCA to include

cases, meaning neither had to contend with

attempted burglary convictions. See
James, 550 U.S. at
203–07, 127 S.Ct. 1586. But these concerns did not motivate

Stokeling, 139 S. Ct. at 551–52 (robbery);
Castleman,
572 U.S. at 163, 134 S.Ct. 1405 (domestic violence). Given

And both

Stokeling and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 010

Castleman were non-burglary
Taylor. See

9

United States v. Yerkes, 820 Fed.Appx. 334 (2020)

the clarity of

Taylor’s exposition of congressional intent,

it is difficult to see why declining to follow
Taylor would
better follow congressional intent under these circumstances.

613 (2019); see also
United States v. Havis, 907 F.3d
439, 446 (6th Cir. 2018) (explaining that “[i]f the text of
Tennessee's attempt statute was plainly overbroad, that would
be a different matter” regarding whether a defendant must
supply a case to demonstrate a realistic probability), rev'd on

Taylor is clear, binding precedent that compels
In sum,
one conclusion—the majority, instrument-for-crime approach
provides the definition of the entry element of generic
burglary.

other grounds, 927 F.3d 382 (6th Cir. 2019) (en banc). Like
plain statutory text, pattern jury instructions may also be so
clear as to demonstrate a realistic probability, not a theoretical
possibility, that a state statute is applied to the least of the acts
criminalized. See United States v. Daniels, 915 F.3d 148, 163
(3d Cir. 2019), cert. denied, ––– U.S. ––––, 140 S. Ct. 1264,

II. Georgia burglary criminalizes
conduct broader than generic burglary

United States v. Glass, 904 F.3d
206 L.Ed.2d 254 (2020);
319, 323 (3d Cir. 2018), cert. denied, ––– U.S. ––––, 139 S.
Ct. 840, 202 L.Ed.2d 610 (2019); United States v. McCranie,
889 F.3d 677, 680 (10th Cir. 2018), cert. denied, ––– U.S.
––––, 139 S. Ct. 1260, 203 L.Ed.2d 282 (2019).

Once the generic definition is determined, we compare the
elements of the *345 state offense to those of the generic
offense, focusing on “[t]he minimum culpable conduct
criminalized by the state statute ... to which there is a ‘realistic
probability, not a theoretical possibility, that the state would
apply the statute.”

Yates, 866 F.3d at 728 (quoting

Moncrieffe v. Holder, 569 U.S. 184, 191, 133 S.Ct.
1678, 185 L.Ed.2d 727 (2013)). Though the Georgia statute
does not define entry, see
Ga. Code Ann. § 16-7-1(a)
(1980), Georgia courts have interpreted “entry” to mean
“ ‘break[ing] the plane’ of the structure.” Mullinnix, 338
S.E.2d at 753 (quotations in original); see also
Meadows
v. State, 264 Ga.App. 160, 590 S.E.2d 173, 177–78 (2003).
Georgia applies the any-instrument approach, and therefore
the minimum culpable conduct under the Georgia burglary
statute is attempted burglary based on an attempted entry.
There is a realistic probability that Georgia would apply
its burglary statute to attempted entries. The most common
method of demonstrating a realistic probability is for a
defendant to “point to his own case or other cases in which
the state courts in fact did apply the statute in the special
(nongeneric) manner for which he argues.”
Gonzales v.
Duenas-Alvarez, 549 U.S. 183, 193, 127 S.Ct. 815, 166
L.Ed.2d 683 (2007). But that is not the only method. For
example, we have relied on the plain text of a statute to hold
that there is a realistic probability that the state would apply
its statute to the minimum culpable conduct in question. See
United States v. Camp, 903 F.3d 594, 602 (6th Cir. 2018),
cert. denied, ––– U.S. ––––, 139 S. Ct. 845, 202 L.Ed.2d
End of Document

Georgia's pattern jury instructions show a realistic probability
that Georgia criminalizes any-instrument entries. Georgia
Suggested Pattern Jury Instruction 2.62.31 provides, “[t]o
constitute ‘entry,’ the evidence need only show a [‘]breaking
of the plane’ of the structure.” 2 Ga. Suggested Pattern Jury
Instr., Crim. 2.62.31 (4th ed. 2020). The instruction's meaning
is plain, and therefore there is a realistic probability Georgia
applies its burglary statute to attempted entries. Accordingly,
Georgia's entry element is broader than the generic entry
element as defined by the instrument-for-crime approach,
and Georgia burglary is not a categorical match for generic
burglary.

III. Conclusion
For the reasons set forth above, Yerkes's Georgia burglary
convictions cannot serve as ACCA predicates. Once Yerkes's
five Georgia convictions are eliminated from his ACCApredicate tally, he is left with only his two Tennessee
convictions. This is insufficient for Yerkes to be classified
as an armed career criminal for sentencing under the ACCA.
Yerkes's sentence should be vacated, and his case remanded
*346 for resentencing. For these reasons, I dissent.
All Citations
820 Fed.Appx. 334

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appx 011

10

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE CHATTANOOGA DIVISION
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
(For Offenses committed on or after November 1, 1987)

v.
Case Number: 1:18-CR-00038-HSM-SKL(1)
LEE YERKES
USM#53194-074

Jackson Whetsel
Defendant’s Attorney

THE DEFENDANT:
☒

pleaded guilty to count(s): One of the Indictment

☐

pleaded nolo contendere to count(s) which was accepted by the court.

☐

was found guilty on count(s) after a plea of not guilty.

ACCORDINGLY, the court has adjudicated that the defendant is guilty of the following offense(s):
Title & Section and Nature of Offense
18 U.S.C. § 922(g)(1) and 18 U.S.C. § 924(e) Felon in Possession of a Firearm and
Ammunition

Date Violation Concluded Count
02/11/2018
1

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984 and 18 U.S.C. 3553.
☐ The defendant has been found not guilty on count(s).
☐ All remaining count(s) as to this defendant are dismissed upon motion of the United States.
IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify the court and the United States attorney of any material change in the
defendant's economic circumstances.
July 15, 2019
Date of Imposition of Judgment

/s/ Harry S. Mattice, Jr.
Signature of Judicial Officer

Harry S Mattice Jr., United States District Judge
Name & Title of Judicial Officer

7/15/2019
Date

Case 1:18-cr-00038-HSM-SKL Document 43 Filed 07/15/19 Page 1 of 7 PageID #: 217
Appx 012

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

LEE YERKES
1:18-CR-00038-HSM-SKL(1)

Judgment - Page 2 of 7

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
180 months as to count one.
☒ The court makes the following recommendations to the Bureau of Prisons: The court recommends that the defendant receive 500
hours of substance abuse treatment from the BOP Institution Residential Drug Abuse Treatment Program.
☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at
☐ a.m. ☐ p.m. on
☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on .
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
to
,
at
,
with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 1:18-cr-00038-HSM-SKL Document 43 Filed 07/15/19 Page 2 of 7 PageID #: 218
Appx 013

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

LEE YERKES
1:18-CR-00038-HSM-SKL(1)

Judgment - Page 3 of 7

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of five (5) years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

5.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
You
must
make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentencing
☐
of restitution. (check if applicable)
☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

6.

☐

7.

☐

4.

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Case 1:18-cr-00038-HSM-SKL Document 43 Filed 07/15/19 Page 3 of 7 PageID #: 219
Appx 014

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

LEE YERKES
1:18-CR-00038-HSM-SKL(1)

Judgment - Page 4 of 7

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
your release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses
you from doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation
officer excuses you from doing so. If you plan to change where you work or anything about your work (such as your position
or your job responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the
probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require you to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the mandatory, standard, and any special conditions specified by the court and has
provided me with a written copy of this judgment containing these conditions. For further information regarding these conditions, see
Overview of Probation and Supervised Release Conditions, available at: www.uscourts.gov.

Defendant’s Signature

Date

Case 1:18-cr-00038-HSM-SKL Document 43 Filed 07/15/19 Page 4 of 7 PageID #: 220
Appx 015

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

LEE YERKES
1:18-CR-00038-HSM-SKL(1)

Judgment - Page 5 of 7

SPECIAL CONDITIONS OF SUPERVISION
The defendant must participate in a program of testing and treatment for drug and/or alcohol abuse, as directed by the probation
officer, until such time as the defendant is released from the program by the probation officer.
The defendant must submit his person, property, house, residence, vehicle, papers, [computers (as defined in Title 18 U.S.C. §
1030(e)(1), other electronic communications or data storage devices or media,] or office, to a search conducted by a United States
probation officer or designee. Failure to submit to a search may be grounds for revocation of release. The defendant must warn any
other occupants that the premises may be subject to searches pursuant to this condition. An officer may conduct a search pursuant to
this condition only when reasonable suspicion exists that the defendant has violated a condition of his supervision and that the areas to
be searched contain evidence of this violation. Any search must be conducted at a reasonable time and in a reasonable manner.

Case 1:18-cr-00038-HSM-SKL Document 43 Filed 07/15/19 Page 5 of 7 PageID #: 221
Appx 016

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

LEE YERKES
1:18-CR-00038-HSM-SKL(1)

Judgment - Page 6 of 7

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments sheet of this judgment.

TOTALS
☐
☐

Assessment
$100.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$.00

The determination of restitution is deferred until
An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

☐
☐
☐

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options under the Schedule
of Payments sheet of this judgment may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution
the
interest
requirement
for
the
fine
☐
☐
☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after September 13, 1994,
but before April 23, 1996.

Case 1:18-cr-00038-HSM-SKL Document 43 Filed 07/15/19 Page 6 of 7 PageID #: 222
Appx 017

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

LEE YERKES
1:18-CR-00038-HSM-SKL(1)

Judgment - Page 7 of 7

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
☒
☐
☐

Lump sum payments of $ 100.00
not later than
in accordance with
☐

B

☐

Payment to begin immediately (may be combined with

C

☐

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period
(e.g., 30 or 60 days) after the date of this judgment; or
of
(e.g., months or years), to commence

D

☐

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period
of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a term of
supervision; or

E

☐

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

☐

Special instructions regarding the payment of criminal monetary penalties:

A

due immediately, balance due
, or
C,
D,
☐
☐
☐

E, or

☐

F below; or

C,

☐

D, or

☐

F below); or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to U.S. District Court, 900 Georgia Avenue, Joel W. Solomon Federal
Building, United States Courthouse, Chattanooga, TN, 37402. Payments shall be in the form of a check or a money order, made
payable to U.S. District Court, with a notation of the case number including defendant number.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
☐

☐
☐
☐

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint
and Several Amount, and corresponding payee, if appropriate.
☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court
costs.

Case 1:18-cr-00038-HSM-SKL Document 43 Filed 07/15/19 Page 7 of 7 PageID #: 223
Appx 018

